GR-40-99-003
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Justice Programs
Grant to Encourage Arrest Policies to the 
City of Knoxville, Tennessee 
Grant No. 97-WE-VX-0082
GR-40-99-003
 
December 1998
 
* * * * *
EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grant
number 97-WE-VX-0082, awarded by the U.S. Department of Justice, Office of Justice
Programs (OJP) to the City of Knoxville, Tennessee (grantee). The grantee received the
$576,425 grant, followed by a supplemental grant of $350,000, to encourage the treatment
of domestic violence as a serious violation of criminal law. The original grant period was
March 1, 1997 through August 31, 1998, but was extended through February 28, 2000, with
the approval of the supplemental grant. 
In brief, our audit determined the grantee:


Was reimbursed twice for $13,052 in costs for the period September 1, 1997, through
    December 31, 1997, and because of an error in calculating salary expenses for the quarter
    ended September 30, 1997, was also reimbursed twice for another $9,902 in salaries and
    fringe benefits.


Hired or budgeted for all staff, and purchased all equipment to be funded by the grant,
    but will have grant funds of $15,397 for personnel, $3,849 for fringe benefits, and
    $12,600 for equipment, remaining at the end of the grant. These excess funds should be
    deobligated and put to better use. 

These items are discussed in detail in the Findings and Recommendations section of the
report. Our scope and methodology appear in Appendix II.
#####